No.
IN THE SUPREME COURT OF THE UNITED STATES
DONOVAN JONATHAN TILLMAN, PETITIONER
v.
STATE OF FLORIDA, RESPONDENT.
_____________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA,
FOURTH DISTRICT
_____________
PETITIONER’S CERTIFICATE OF SERVICE
________________________________
CAROL STAFFORD HAUGHWOUT
Public Defender
GARY LEE CALDWELL
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street
West Palm Beach, Florida 33401
(561)355-7600; (561) 624-6560
gcaldwel@pd15.state.fl.us
jcwalsh@pd15.state.fl.us
appeals@pd15.state.fl.us

I HEREBY CERTIFY that I am a member of the Bar of the
Supreme Court of the United States and represent Petitioner in
this cause; that all parties required to be served with the Petition
for Writ of Certiorari, with attachments, and with the Motion for
Leave to Proceed In Forma Pauperis, with affidavit; and that
service was had pursuant to Rule 29.5, Rules of the Supreme
Court of the United States, by sending a true and accurate copy
thereof, by first class United States Mail and email on 25
February 2021, addressed to the following parties or their counsel
at:
Anesha Worthy, Esq.
Counsel for Respondent, the State of Florida
Assistant Attorney General
Department of Legal Affairs
1515 North Flagler Drive, 9th Floor
West Palm Beach, Florida 33401-2299
Anesha.worthy@MyFloridaLegal.com
crimappwpb@MyFloridaLegal.com
Respectfully submitted,
CAROL STAFFORD
HAUGHWOUT
Public Defender
/s/ Gary Lee Caldwell
GARY LEE CALDWELL
Assistant Public Defender
Counsel of Record

